                   AUDIT REPORT




Preservation and Disposal
of Historic Properties
  April 16, 2014




                    Report Number SM-AR-14-004
                                                                      HIGHLIGHTS

                                                                       April 16, 2014
                                                Preservation and Disposal of Historic
                                                                          Properties
                                                        Report Number SM-AR-14-004
BACKGROUND:
The U.S. Postal Service Office of              The Postal Service has the authority to
Inspector General (OIG) issued                 dispose of historic properties but must
two reports on the U.S. Postal Service’s       follow certain regulations for preserving
contract with CBRE Group, Inc. This            their historic features. Additionally, the
report, which addresses the Postal             Postal Service must follow certain
Service’s historic properties, is the third    regulations for relocating retail services
in a series evaluating Postal Service          from all properties regardless of whether
real estate management. We are also            or not the property is historic. The two
assessing the Postal Service’s valuation       regulations are independent of each
of real estate transactions, including         other.
historic properties, in a fourth audit. This
report responds to congressional               Our objective was to determine whether
inquiries about whether the Postal             the Postal Service effectively managed
Service complied with the regulations to       the preservation and disposal of historic
preserve historic features and the             properties. We also assessed whether
regulations to relocate retail services.       the Postal Service followed regulations
                                               to preserve historic properties and
Because of financial challenges, the           regulations applicable to relocation of
Postal Service sold 22 historic                retail services. We reviewed nine
properties of more than 8,500 owned            historic properties during this audit,
properties from October 2010 through           including the Bronx, NY, and La Jolla,
June 2013. It reported to the OIG that,        CA, post offices.
as of July 2013, it had 25 historic
properties listed for sale and was             WHAT THE OIG FOUND:
considering selling another 28.                The Postal Service did not know how
                                               many historic properties it owned or
The Advisory Council on Historic               what it cost to preserve them, as
Preservation promotes the preservation         required by the National Historic
of national historic resources and             Preservation Act. It did not report the
advises the president and Congress on          status of historic artwork to the National
national historic preservation policy. The     Museum of American Art, as required by
Postal Service volunteered to report the       Postal Service Handbook RE-6,
status of its historic properties to the       Facilities and Environmental Guide,
council every 3 years. The council will        when it sold 10 historic post offices.
address the Postal Service’s compliance
with historic preservation regulations in      The Postal Service did not collaborate
a separate report to Congress.                 with the Advisory Council on Historic
                                               Preservation to improve its compliance
                                               with the National Historic Preservation
Act and did not submit its 2011 status      historic art. Management should
report to the council. The council could    collaborate with appropriate
help the Postal Service establish           organizations to improve the
covenants to protect historic features      transparency of historic property
and help secure covenant holders to         preservation and submit the 2011 status
monitor compliance with those               report to the Advisory Council on
covenants. Also, the council could help     Historic Preservation.
review public requests to participate in
the preservation process. The Postal        Link to review the entire report
Service could also use the U.S. General
Services Administration — which
employs experienced real estate and
historical preservation professionals —
to assist in the preservation process.

The vice president, Facilities, who
approves funding for the relocation of
retail services and disposal, also issues
the final determination letter after
reviewing appeals raised during the
process. This gives the appearance of
bias. Three of the nine relocations were
appealed and he denied all three
appeals.

The Postal Service appropriately applied
relocation procedures rather than
discontinuance procedures for all
nine properties we reviewed. However,
officials did not post the public meeting
notification 7 days in advance for
one property, as required, and could
not show documentation that it met
the relocation requirements for
two properties.

WHAT THE OIG RECOMMENDED:
We recommended management
reconcile the properties listed on the
National Register of Historic Places to
the properties listed in the facilities
management system, develop a process
to track expenditures for preserving
historic properties, and notify the
National Museum of American Art about
the 10 sold post offices containing
April 16, 2014

MEMORANDUM FOR:             TOM A. SAMRA
                            VICE PRESIDENT, FACILITIES




FROM:                       Michael A. Magalski
                            Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Audit Report – Preservation and Disposal of Historic
                            Properties (Report Number SM-AR-14-004)

This report presents the results of our audit of the Preservation and Disposal of Historic
Properties (Project Number 13YG027SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Preservation and Disposal of Historic Properties                                                                   SM-AR-14-004



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Management of Historic Properties ................................................................................. 3

   List of Historic Properties ............................................................................................. 3

   Preservation Budget .................................................................................................... 3

   New Deal Art ............................................................................................................... 4

Compliance with Preservation Regulations ..................................................................... 5

   Advisory Council on Historic Preservation ................................................................... 5

   General Services Administration ................................................................................. 7

Compliance with Relocation Regulations ........................................................................ 8

   Appearance of Bias ..................................................................................................... 8

   Public Notification ........................................................................................................ 8

Recommendations .......................................................................................................... 9

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objective, Scope, and Methodology .......................................................................... 13

   Prior Audit Coverage ................................................................................................. 15

Appendix B: Management’s Comments ........................................................................ 17
Preservation and Disposal of Historic Properties                                                           SM-AR-14-004



Introduction

This report presents the results of our audit of the Preservation and Disposal of Historic
Properties (Project Number 13YG027SM000). The U.S. Postal Service Office of
Inspector General (OIG) issued two reports on the U.S. Postal Service’s contract with
CBRE Group, Inc. (CBRE) This report, which addresses the Postal Service’s historic
properties, is the third in a series evaluating Postal Service real estate management.
We are also assessing the Postal Service’s valuation of real estate transactions,
including historic properties, in a fourth audit. This report responds to congressional
inquiries about whether the Postal Service complied with regulations to preserve historic
features and to relocate retail services. Our objective was to determine whether the
Postal Service effectively managed the preservation and disposal of historic properties.
We assessed whether the Postal Service followed regulations to preserve historic
properties and the regulations to relocate retail services. We reviewed nine historic
properties during this audit, including the Bronx, NY, and La Jolla, CA, post offices. See
Appendix A for additional information about this audit.

Because of financial challenges, the Postal Service sold 22 historic properties of more
than 8,500 owned properties from October 2010 through June 2013. It reported to the
OIG that as of July 2013, it had 25 historic properties listed for sale and was considering
selling another 28.

The Advisory Council on Historic Preservation (ACHP) promotes the preservation of
national historic resources and advises the president and Congress on national historic
preservation policy. The Postal Service volunteered to report the status of its historic
properties to the council every 3 years. The council will address the Postal Service’s
compliance with historic preservation regulations in a separate report to Congress.

The Postal Service has the authority to dispose of historic properties but must follow
certain regulations for preserving their historic features including Section 106 of the
National Historic Preservation Act (NHPA).1 This section requires federal agencies to
consider the effects of their proposed undertakings2 on historic properties. If the agency
finds that its undertaking could affect a historic property, it must assess possible
adverse effects, collaborate with others to establish covenants to protect the historic
character of the properties, and consider requests from the public to participate in the
preservation process.

Additionally, the Postal Service must follow certain regulations for relocating its retail
services from all properties regardless of whether or not the property is historic. In 1998,
the Postal Service instituted Title 39 of the Code of Federal Regulations (CFR) Sections



1
 A law intended to preserve historical and archaeological sites in the U.S.
2
 A project, activity, or program funded, in whole or in part, under the direct or indirect control of a federal agency that
can change the character or use of historic properties.
                                                             1
Preservation and Disposal of Historic Properties                                                      SM-AR-14-004



241.33 and 241.4,4 which apply to discontinuance and relocation of retail services from
post offices. This requires the Postal Service to solicit and consider public input before
changing a retail service location.

Conclusion

The Postal Service did not know how many historic properties it owned or what it cost to
preserve them, as required by the NHPA.5 It did not report the status of New Deal Art6
to the National Museum of American Art,7 as required by Postal Service policies,8 when
it sold 10 historic post offices. Some of the Postal Service’s policies regarding New Deal
Art were unavailable to the public.

The Postal Service did not collaborate with the ACHP to improve its compliance with the
NHPA and did not submit its 2011 status report to the council. The council could help
the Postal Service develop a program to establish covenants to protect historic features
and help secure covenant holders9 to monitor compliance with those covenants. The
council could also help review public requests to participate in the preservation process.
The Postal Service could also use the U.S. General Services Administration (GSA)10—
which employs experienced real estate and historical preservation professionals — to
assist in the preservation process.

The vice president, Facilities, who approves funding for relocation of retail services and
disposal, also issues the final determination letter after reviewing appeals raised during
the process. This gives the appearance of bias. Three of the nine relocations were
appealed and he denied all three appeals. The Postal Service appropriately applied
relocation, rather than discontinuance, procedures for the nine properties we reviewed.
However, officials did not post the public meeting notification 7 days in advance for
one property and could not provide proper documentation that it met the relocation
requirements for two properties.



3
  39 CFR Section 241.3, Discontinuance of Post Offices. This section applies when Post Office operations are
permanently discontinued without providing a replacement facility or consolidated into a contractor-operated retail
facility.
4
  39 CFR Section 241.4, Expansion, Relocation, and Construction of Post Offices. This section applies when the
Postal Service contemplates the expansion, relocation, or new construction of a customer service facility, except
when the project is to meet an emergency requirement or for temporary use.
5
  Section 110 (a)(2), Federal Agencies’ Responsibility to Preserve and Use Historic Properties, requires each agency
to establish a preservation program to identify and protect historic properties.
6
  Murals and sculptures commissioned from 1934 to 1944 under the U.S. Department of Treasury Section of Painting
and Sculpture, Section of Fine Arts, and the Treasury Relief Arts Project, specifically for Postal Service facilities.
7
  The National Museum of American Art is home to one of the largest and most inclusive collections of American art
in the world.
8
  Handbook RE-6, Facilities and Environmental Guide, Section 3-4.7.6.
9
  A covenant holder is an organization, with the required resources, whose primary mission is to preserve, monitor,
and enforce the covenant of a historic place. A covenant is the legal mechanism to protect properties that have
historic, architectural, or archaeological significance and binds current and future owners to protect the historic
character and values of the property.
10
   The GSA helps manage and support the basic functioning of agencies, oversees the preservation of more than
480 historic buildings, and facilitates the government's purchase of goods and services from commercial vendors.

                                                          2
Preservation and Disposal of Historic Properties                                                           SM-AR-14-004




Management of Historic Properties

The Postal Service did not know how many historic properties it owned or what it cost to
preserve them. The NHPA directs agencies to establish a program to consider historic
features when managing and maintaining properties listed or eligible for listing on the
National Register (NR) of Historic Places.11 Also, the Postal Service did not report the
status of New Deal Art to the National Museum of American Art, as required, when it
sold 10 historic post offices. Some of the Postal Service’s policies regarding New Deal
Art were unavailable to the public.

List of Historic Properties

The Postal Service was unable to compile a list of the historic properties it owns. This
occurred because the electronic Facilities Management System (eFMS)12 did not
contain all of the NR historic classifications; therefore, Facilities personnel could not
accurately categorize historic properties in the system. Upgrades to eFMS corrupted
links to historic property documents and images in the system, further hindering
Facilities’ ability to classify the historic eligibility of a property.13 Facilities personnel said
they do not review the historic eligibility of a property unless it will be subject to an
activity that could change the character or use of it. Without accurate data in eFMS, the
Postal Service cannot proactively identify, manage, and protect the historic properties in
its inventory.

Preservation Budget

The Postal Service could not identify funds spent to preserve the features of historic
properties because it charged costs for preserving historic buildings to its general
facilities repair and alterations account. The Postal Service’s federal preservation officer
(FPO)14 estimated the Postal Service spent several million dollars to preserve murals
and historic features for fiscal years (FY) 2011 to 2013 but could not provide
documentation to support the estimate. Postal Service personnel stated they have
never separately tracked expenditures for preserving historic properties. They also said
extracting such expenditures from their overall repairs and alterations expenditures
would require them to research numerous projects and, because of limited resources,
this would be impractical.

In addition, budget constraints have affected the Postal Service’s ability to fund property
repairs and alterations and have impacted the Postal Service’s ability to maintain

11
   NR of Historic Places is the official list of national historic places worthy of preservation. The National Park Service
(NPS) administers the NR.
12
   The eFMS database is the official Postal Service's record for real property inventory used to manage all property-
related projects including acquisition, disposal, and repairs.
13
   Postal Service personnel said their Information Technology group has increased efforts to resolve the issue but has
not estimated a completion date.
14
   The FPO coordinates an agency’s activities under the NHPA and must complete appropriate training to be
qualified.

                                                            3
Preservation and Disposal of Historic Properties                                                      SM-AR-14-004



historic properties. For the universe of 75 historic properties sold, for sale, or potentially
for sale between October 2010 and July 2013, the Postal Service did not complete 166
repairs during FYs 2011 to 2013. Of the incomplete repairs, 71 percent (118 of 166)
were safety, security, and potential major issues estimated at $1.8 million. In addition,
25 percent (41 of 166) were potential Occupational Safety and Health Administration
(OSHA)15 violations, estimated at $57,000 in fines. In comparison, 50 percent of
incomplete repairs for all Postal Service facilities were safety, security, and potential
major issues and 16 percent of them were potential OSHA violations (see Figure 1).
Without a separate preservation budget, the Postal Service cannot track expenditures
or emphasize the protection of historic properties.

               Figure 1. Comparison of Percentages for Historic Properties
                                   FYs 2011 to 2013




                                                                                                          16
            Source: OIG analysis of Postal Service eFMS data as of December 2013 and in a prior report.

New Deal Art

The Postal Service FPO did not notify the senior curator, National Museum of American
Art, when the Postal Service sold 10 post offices17 containing New Deal Art between
October 2010 and July 2013. Whenever the Postal Service loans out or relocates a New
Deal mural or sculpture, the FPO is required to notify the senior curator at the National
Museum of American Art. The Postal Service said that limited resources and pressing
priorities caused the oversights. Without such notifications, the Postal Service is not
transparent about the status and location of New Deal Art.


15
   OSHA is the division of the U.S. Department of Labor that sets and enforces occupational health and safety rules.
16
   Spending Trends for Maintaining Postal Service Facilities (Report Number SM-AR-14-002, dated November 27,
2013).
17
   Greenwich, CT; Palm Beach, FL; Naperville, IL; Bethesda, MD; Beaufort, NC; Erie, PA; Ukiah, CA; Venice, CA;
Fairfield, CT; and Chelsea, MI.

                                                          4
Preservation and Disposal of Historic Properties                                                     SM-AR-14-004



Some Postal Service policies regarding New Deal Art were unavailable to the public. Of
the three Postal Service policies about New Deal Art, Handbook RE-1 was the only one
available on the Postal Service's website. It stated that no artwork may be removed,
sold, lent, or otherwise disposed of without the FPO’s express approval.18 The
handbook19 also states that when a decision is made to dispose of a facility that
contains New Deal Art, the contracting officer (CO) must initially decide on the
disposition of the artwork. Also, because New Deal Art may contribute to the eligibility of
a facility for inclusion in the NR, the CO must follow procedures in Section 106 of the
NHPA. Postal Service personnel said the handbook was not available because they
were revising it. The Postal Service also has requirements in place20 detailing the
parameters for relocating artwork under loan agreements.

According to the Postal Service, each policy has a different purpose and each refers to
NHPA Section 106 concerns in connection with that purpose. However, because only
one handbook related to New Deal Art was available, the public was not fully aware of
how the Postal Service manages and handles it. By including all New Deal Art policies
in Handbook RE-1, the Postal Service would increase transparency and public
awareness of its responsibilities in this area.

Compliance with Preservation Regulations

The Postal Service did not collaborate with the ACHP to improve its preservation
regulations compliance and did not submit its 2011 status report to the council. The
Postal Service could also use the GSA — which employs experienced real estate and
historical preservation professionals — to assist in the preservation process.

Advisory Council on Historic Preservation

The Postal Service has not developed a program alternative21 with the ACHP to help
implement preservation regulations pertaining to Section 106 of the NHPA. The
program alternative would make the initiation of the Postal Service’s Section 106
process transparent, establish covenants to protect historic features, help secure
covenant holders to monitor compliance with the covenants, and help review consulting
party requests from the public to participate in the preservation process. In addition, the
Postal Service could enhance transparency by submitting its 2011 Preserve America
status report to the ACHP.

Initiation of the Section 106 Process. The Postal Service begins the Section 106
process once it considers disposing of a historic property. A program alternative with the
ACHP would make the Postal Service’s process transparent to the public and inform the
public of the process for identifying potential disposals of historic properties.

18
   Handbook RE-1, U.S. Postal Service Facilities Guide to Real Property Acquisitions and Related Services,
Section 333.2.
19
   Section 3-4.7.5.
20
   Administrative Support Manual, Section 517.124, Facilities and Equipment.
21
   A program alternative is a streamlined set of procedures for implementing Section 106 of the NHPA on a large
scale in lieu of standard building-by-building Section 106 consultation.

                                                         5
Preservation and Disposal of Historic Properties                                                      SM-AR-14-004




Establishing Covenants. A program alternative with the ACHP could help the Postal
Service develop covenants to protect historic properties. The ACHP and the National
Trust for Historic Preservation (NTHP)22 said the Postal Service's preservation covenant
template language was inadequate. In December 2013, the ACHP sent a letter to the
Postal Service stating that the Santa Monica, CA, Post Office covenant was insufficient
because it included a clause that allows the city, following public notice, to modify or
cancel covenant restrictions. The ACHP said this clause jeopardizes the long-term
protection of the property’s historic significance. Also, the NTHP, the New York State
Historic Preservation Offices (SHPO), and the Postal Service collaboratively drafted
language for the Bronx, NY, covenant. While the NTHP believes this covenant language
is stronger than the original Postal Service template language, it is concerned because
the covenant still contains a clause similar to the one developed for the Santa Monica,
CA, Post Office. However, the Postal Service and covenant holders have approved the
covenants for the Santa Monica, CA, and Bronx, NY, post offices.

Securing Covenant Holders. The Postal Service has had difficulty finding covenant
holders. A covenant holder must have the required resources to preserve, monitor, and
enforce the covenant of a historic place. The Postal Service is not in a financial position
to fund the covenant holder and most SHPOs do not have the resources due to budget
reductions. For example, the California SHPO refused to be a covenant holder and this
required the Postal Service to find other agencies or agents for this role. The ACHP said
it encouraged the Postal Service to work with the SHPOs, local or state preservation
organizations, certified local governments (CLG),23 or the NTHP to identify other entities
that may be willing and able to hold covenants.

Consulting Party Requests. In some cases, the Postal Service granted consulting
party status to local and state preservation organizations and CLGs; however, it
rejected without explanation consulting party requests by community groups that have a
vested interest.24 For example, it denied requests for consulting party status to the
Citizens to Save the Berkeley Post Office; the National Post Office Collaborate for the
Berkeley, CA, Post Office; and the National Post Office Collaborate for the La Jolla, CA,
and Bronx, NY, post offices. The ACHP said the Postal Service did not justify its
decision to deny consulting status to requesting parties. Providing justifications would
ease the public’s concern about the lack of transparency in the Postal Service’s
Section 106 process.

In early 2012, the Postal Service initiated discussions with the ACHP about pursuing a
program alternative. The ACHP stated that it would take 12 to 18 months to develop a
22
   Chartered by Congress in 1949, the NTHP is a privately funded nonprofit organization that works to save America’s
historic places.
23
   The CLG program is a local, state, and federal government partnership for historic preservation designed to help
cities and counties develop high standards of preservation to protect important historic properties. Local governments
participating in the program act independently to develop and maintain a successful preservation program.
24
   Under 36 CFR Section 800, members of the public may ask to formally participate as consulting parties in the
Section 106 review when they have demonstrated interest in the undertaking, either because of a legal or economic
relation to the undertaking or property, or because of their concern regarding effects of the undertaking on historic
properties. The agency, in consultation with the SHPO, shall consider all such requests.

                                                          6
Preservation and Disposal of Historic Properties                                                         SM-AR-14-004



program alternative. However, the Postal Service was involved in immediate disposal
actions at the time and decided it would be quicker to interact directly with the SHPOs.
A Postal Service contractor said completion of the Section 106 compliance process for
each historic property involves consultation and negotiation with SHPOs, local
governments, individuals, organizations, and the public and places tremendous time
and cost pressures on the Postal Service FPO and real estate specialists.25 The ACHP
informed the Postal Service in writing that a program alternative was preferable to
completing the Section 106 process on a case-by-case basis.26 The program
alternative would provide additional resources to help the Postal Service implement the
Section 106 process and increase transparency.

2011 Preserve America Report. The Postal Service has not issued its final 2011
Preserve America report to the ACHP. It submitted a draft report but it is not available to
the public. The Postal Service said the FPO has not had time to complete the report
because of more pressing priorities. The Postal Service said it voluntarily complies with
Executive Order (EO) 1328727 and, if it decides to complete the 2011 report, it
estimated it would do so by the end of the second quarter, FY 2014. Without the
Preserve America report, the public is not privy to the status of the Postal Service’s
efforts to identify, use, and protect its historic properties.

General Services Administration

The Postal Service could use GSA’s knowledge, expertise, and assistance to implement
the Section 106 process to preserve historic properties. For example, GSA could train
and guide Postal Service employees and potential buyers on the preservation process
and federal and state tax credits for rehabilitating buildings listed on the NR or eligible
for listing. The need for this training was identified in the October 2012 URS Group, Inc.
study. In December 2011, GSA and the Postal Service entered into a memorandum of
agreement28 for disposal assistance and other real property services; however, the
Postal Service has only used GSA to market properties it was unable to sell.

The Postal Service stated it wants to retain control of the Section 106 compliance
process and not delegate control to GSA because, ultimately, the Postal Service is
responsible for meeting its Section 106 obligations. However, collaborating with GSA
would enable the Postal Service to better meet these obligations, demonstrate its
commitment to historic preservation, and increase public trust as it relates to providing
information and guidance concerning historic properties.



25
   USPS Nationwide Historic Context Study: Postal Facilities Constructed or Occupied Between 1940 and 1971,
dated October 2012, prepared by URS Group, Inc. for the Postal Service.
26
   Letters from the ACHP to the postmaster general, dated June 12, 2012, and a Postal Service attorney, dated
January 10, 2013.
27
   Requires agencies to report to the council every 3 years on its progress in identification, protection, and use of its
historic properties.
28
   The December 2011 Memorandum of Agreement between the Postal Service and GSA for Real Property Related
Services states that the GSA will work on a reimbursable basis to provide disposal assistance and other real property
services to the Postal Service.

                                                            7
Preservation and Disposal of Historic Properties                                                         SM-AR-14-004



Compliance with Relocation Regulations

The Postal Service appropriately applied relocation, rather than discontinuance,
procedures for the nine properties we reviewed. However, the vice president, Facilities,
who approves funding for relocation of retail services and disposals, also issues the
final determination letter after reviewing any appeals raised during the process. This
results in the appearance of bias. Also, Postal Service officials did not post the public
meeting notification 7 days in advance for one property and could not provide proper
documentation to show it met the relocation requirements for two properties. The OIG
will address these issues in another audit that assesses the Postal Service's relocation
process for retail services; therefore, we did not make recommendations pertaining to
the process.

Appearance of Bias

Under relocation procedures, the Postal Service’s vice president, Facilities, issues the
final determination letter after reviewing any appeals raised during the process. Three of
the nine property relocations were appealed29 and he denied all three. The vice
president manages Postal Service real estate and is tasked with generating revenue
and reducing costs by consolidating and disposing of excess space. This raises the
question of bias because the vice president, Facilities, is also involved in the process
that generates the appeals.

Public Notification

Postal Service personnel met to obtain public input on relocating retail services for the
nine properties we reviewed. However, they did not post the meeting notification 7 days
in advance for one property and we could not determine whether the Postal Service
followed requirements for two other properties.

The Postal Service did not follow the 7-day advance notice requirement30 for the public
meeting for the Venice, CA, Post Office, only giving the public 5 days' notice. Postal
Service personnel said this occurred because it was the district’s first relocation and the
district initially treated the action as a discontinuance instead of a relocation. For the
Greenwich, CT, Post Office, we could not determine whether the Postal Service
followed the 7-day advance notice requirement, followed the 15-day period requirement
for public comment,31 or issued a final decision notice.32 For the Palm Beach, FL, Post
Office, we could not determine whether the Postal Service issued an initial decision
notice.33
29
   Venice, CA; La Jolla, CA; and Bronx, NY, post offices.
30
   39 CFR Section 241.4(c)(4)(i) requires the Postal Service to post a public notice of a public meeting at least 7 days
before the meeting.
31
   39 CFR Sections 241.4(c)(4)(iii) and (c)(5) require the Postal Service to provide the public with not less than a 15-
day comment period after the public meeting.
32
   39 CFR Section 241.4(c)(6) requires the Postal Service to provide a final decision notice on relocation of a Post
Office at least 15 days after the appeal period ends if appeals are received.
33
   39 CFR Section 241.4(c)(5) requires the Postal Service to decide on relocation and notify local officials and post a
copy of the notification letter in the local Post Office for the public.

                                                           8
Preservation and Disposal of Historic Properties                               SM-AR-14-004




The Postal Service did not provide documentation to support these actions because it
does not have clear guidance on record retention and content for public notifications.
Without 7 days’ notice, the public does not have enough time to plan for a meeting. In
addition, if it does not maintain relocation documents, the Postal Service cannot verify it
followed regulations and provided the public an opportunity to convey comments and
concerns.

Recommendations

We recommend the vice president, Facilities:

1. Reconcile Postal Service-owned properties listed on the National Register of Historic
   Places to the properties in the electronic Facilities Management System to improve
   the quality and accuracy of data recorded in the system and ensure related
   documents and images are electronically accessible in the system.

2. Develop a process to track expenditures for the preservation of historic properties to
   establish a baseline for future preservation budgets for historic properties.

3. Require the federal preservation officer to notify the senior curator of the National
   Museum of American Art of the status of the New Deal Art in the 10 historic post
   offices that were sold between October 2010 through July 2013.

4. Develop and implement a process to ensure the federal preservation officer notifies
   the senior curator of the National Museum of American Art when New Deal Art is
   loaned or relocated.

5. Include all policy related to New Deal Art in Handbook RE-1, U.S. Postal Service
   Facilities Guide to Real Property Acquisitions and Related Services.

6. Develop and implement a program alternative with the Advisory Council on Historic
   Preservation.

7. Finalize and submit the 2011 Preserve America report to the Advisory Council on
   Historic Preservation.

8. Assess the cost and benefits of utilizing U.S. General Services Administration’s
   services when a historic property is being considered for sale.

Management’s Comments

Management agreed with recommendations 1, 2, 3, 4, 5, 7, and 8; and did not state
whether they agreed or disagreed with recommendation 6 and all of the findings.
Management stated the Postal Service continuously optimizes it facilities network and
the sale of historic properties to date have been modest. In addition, management


                                                   9
Preservation and Disposal of Historic Properties                                  SM-AR-14-004



stated they anticipate the modest pace of disposals will not increase in the near term.
Management recommended we limit the report to historic preservation and disposals
and address our relocation findings in a separate audit on relocation compliance.
Management is concerned that including relocation findings in this report may create
confusion because regulations governing historical preservation and regulations
governing relocation are completely independent of each other.

Management stated the Postal Service owns about 9,000 properties and has a process
for identifying historic properties and ensuring compliance with preservation regulations
when it begins an undertaking with respect to a property. Management further stated
they were not aware of any failure to identify a property as historic prior to its disposal or
any failure to follow the regulatory process prior to disposing of a historic property.
Management agreed the ACHP could help the Postal Service protect and preserve
historic properties and will again request their assistance, but stated that ACHP
assistance has been limited in the past. Management also stated the Postal Service’s
preservation covenant is sufficient to protect historic features of properties, including the
covenants for the Santa Monica, CA, and Bronx, NY, post offices.

Regarding recommendation 1, management agreed to reconcile the
Postal Service-owned properties listed on the NR to the properties in the eFMS by
December 31, 2014.

Regarding recommendation 2, management agreed to develop a process to track
expenditures for preserving historic properties that establishes a baseline for future
preservation budgets for historic properties by June 30, 2014.

Regarding recommendation 3, management agreed to require the FPO to notify the
senior curator of the National Museum of American Art of the status of New Deal Art in
the 10 historic post offices the Postal Service sold between October 2010 and July 2013
by May 1, 2014.

Regarding recommendation 4, management agreed to develop and implement a
process to ensure the FPO notifies the senior curator of the National Museum of
American Art when New Deal Art is loaned or relocated by May 30, 2014.

Regarding recommendation 5, management agreed to include all policy related to New
Deal Art in Handbook RE-1 by September 30, 2014.

Regarding recommendation 6, management stated the Postal Service previously
discussed a program alternative with the ACHP and both concluded the benefits would
not justify the resources required given the anticipated modest number of disposals of
historic properties. Management stated they will continue to monitor the volume and
pace of historic property disposals and, if it increases significantly, will seek another
discussion with the ACHP. As a result, management did not provide a target
implementation date for this recommendation.



                                                   10
Preservation and Disposal of Historic Properties                              SM-AR-14-004



Regarding recommendation 7, management agreed to finalize and submit the 2011
Preserve America report to the ACHP by July 31, 2014.

Regarding recommendation 8, management agreed to request information and
proposals from the GSA for its services; however, they stated they were unable to
estimate a date for completing the assessment until the Postal Service receives the
information from the GSA. See Appendix B for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, 3,
4, 5, and 7 and the corrective actions should resolve the issues identified in the report.
We cannot accommodate management’s request to limit the report to historic
preservation and disposals and address relocation findings in a separate audit because
congressional and public inquiries about the sale of historic properties also included
concerns about whether the Postal Service was following regulations for relocating retail
services. In addition, all nine historic properties we reviewed contained retail services
that were either relocated or being considered for relocation.

Regarding management’s response to recommendation 6, our recent discussions with
ACHP revealed that a program alternative would be in the Postal Service’s best interest.
While we believe the Postal Service should take advantage of this resource to help
implement the Section 106 process and increase transparency, we do not plan to
pursue this recommendation through the formal audit resolution process. The significant
recommendation will be closed with the issuance of this report.

Regarding management’s response to recommendation 8, they should provide the OIG
with the dates they request and receive information from the GSA. Upon the latter
notification, management should provide an estimated completion date for assessing
the cost and benefits of using the GSA’s services.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                   11
Preservation and Disposal of Historic Properties                                 SM-AR-14-004




                              Appendix A: Additional Information

Background

The NR is the official list of the nation’s historic properties worthy of preservation. The
federal government transferred many of these properties and historic artwork to the
Postal Service when it became an independent agency in 1971. Because of its current
financial condition, the Postal Service has closed and sold post offices. It has the
authority to do so but is required to follow procedures that include considering public
input and preserving the historical features of properties and any associated historic
artwork.

In 1982, the Postal Service Board of Governors issued a resolution that the Postal
Service would voluntarily comply with Sections 106, 110, and 111 of the NHPA. In 1998,
the Postal Service implemented 39 CFR Section 241.4, which applies to relocation of
retail services from post offices. It also requires the Postal Service to comply with
Section 106 of the NHPA and EOs 12072 and 13006. Section 106 requires federal
agencies to consider the effects of their proposed undertakings on historic properties. If
the agency determines the undertaking could affect a historic property, it must assess
possible adverse affects. EO 12072 directs federal agencies to give first consideration
to centralized business community areas when filling space needs to strengthen the
nation's cities and to make them attractive places to live and work. EO 13006 states the
federal government should use and maintain, whenever operationally appropriate and
economically prudent, historic properties and districts, especially those located in
central business areas. Each federal agency shall seek appropriate partnerships with
states, local governments, Indian tribes, and appropriate private organizations with the
goal of enhancing participation of these parties in the National Historic Preservation
Program.

Compliance with Sections 110 and 111 of the NHPA was not mandated in 39 CFR
241.4 but compliance requirements were incorporated into internal policies, such as
Postal Service Handbook RE-6; therefore, the Postal Service’s compliance with
Sections 110 and 111 is voluntary. Section 110 directs each agency to establish a
preservation program to identify, evaluate, nominate, and protect historic properties and
designate an FPO who coordinates the agency's activities following the NHPA.
Section 111 allows a federal agency to lease or exchange a historic property if the
agency determines that the lease or exchange will adequately ensure the preservation
of the historic property.

Some congressional members were concerned by reports the Postal Service was
attempting to sell many of its historic properties without regard for their preservation and
may not be following the law when doing so. In addition, individuals and public interest
groups have expressed numerous concerns about the Postal Service’s processes.




                                                   12
Preservation and Disposal of Historic Properties                                                     SM-AR-14-004




Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service effectively managed the
preservation and disposal of historic properties. We assessed whether the Postal
Service followed regulations to preserve historic properties and relocate retail services.
Our audit scope of 75 historic properties was comprised of 22 historic properties sold
from FYs 2011 to 2013, 25 historic properties for sale, and 28 historic properties being
considered for sale as of July 2013. To accomplish our objective, we:

     Selected a judgmental sample of nine historic properties, including three sold
      properties, three properties for sale, and three properties being considered for sale.
      The sample properties are listed in Table 1.

                                         Table 1. Sample Properties

      Category as of July 2013                     Sites
      Sold                     Palm Beach, FL Venice, CA     Greenwich, CT
      Currently For Sale       Northfield, MN San Rafael, CA New London, CT
      Considered For Sale      La Jolla, CA   Bronx, NY      Annapolis, MD
     Source: OIG selections from the Postal Service's universe of historic properties.

     Visited the Bronx, NY; Northfield, MN; San Rafael, CA; La Jolla, CA; Fernandina
      Beach, FL; and New London, CT, post offices.

     Analyzed documents from the Postal Service for the nine judgmentally selected
      historic properties to determine compliance with Postal Service policies and
      regulations regarding relocations of retail service from historic properties.

     Analyzed data for the universe of historic properties from the annual priority list and
      repair calls not completed in the Facilities Single Source Provider (FSSP)34 system
      for FYs 2011 to 2013 to identify safety and security issues, potential OSHA
      violations, lack of preventative maintenance, and future major repairs. We also
      reviewed the status of repairs and the repair history of applicable buildings in the
      eFMS.

     Interviewed members of the ACHP and NTHP regarding the Postal Service’s historic
      preservation and disposal programs.

     Interviewed members of the public who contacted us with concerns regarding the
      Postal Service’s historic preservation and disposal programs.



34
   The FSSP system is administered by the Facilities organization and was established for Postal Service personnel
to record facility-related repairs and alterations. FSSP call centers respond to Postal Service facility repair and
alteration needs, which are categorized as emergency, urgent, or routine.

                                                            13
Preservation and Disposal of Historic Properties                                                    SM-AR-14-004



    Consulted with the Postal Service OIG’s Office of General Counsel regarding Postal
     Service policies and procedures pertaining to historic properties.

    Interviewed Postal Service Headquarters Facilities personnel to determine why the
     2011 Preserve America report is late and whether there are plans to develop a
     comprehensive program to identify and evaluate historic properties that may be
     affected by the Postal Service's undertakings, as required by Section 110 of the
     NHPA. We also discussed with Postal Service personnel their collaboration with the
     ACHP, NTHP, and GSA.

    Identified historic post offices the Postal Service sold from October 2010 through
     June 2013 that contained New Deal Art and interviewed the FPO to determine
     whether the senior curator of the National Museum of American Art was notified
     when the art was loaned or relocated upon the sale of the post offices.

    Reviewed documents pertaining to the National Environmental Protection Act
     (NEPA)35 reviews and categorical exclusions, if claimed, to determine whether they
     were documented but did not evaluate the validity of the reviews and categorical
     exclusions.

We conducted this performance audit from July 2013 through April 2014 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 25, 2014, and included their
comments where appropriate.

To conduct this review, we relied on computer-processed data in the Enterprise Data
Warehouse (EDW)36 and eFMS. We did not test the validity of controls over these
systems. However, we determined the accuracy of the data by comparing the data to
the problem detail and baseline reports. We determined that the data were sufficiently
reliable for the purposes of this report.

We did not assess whether the Postal Service complied with Section 111 of the NHPA,
which allows a federal agency to lease or exchange a historic property if the agency
determines that the lease or exchange will adequately ensure the preservation of the
historic property.




35
   The NEPA requires federal agencies to integrate environmental values into their decision-making processes by
considering the environmental impacts of their proposed actions and reasonable alternatives to those actions.
36
   The EDW is a single repository for managing the Postal Service’s corporate data assets.

                                                        14
Preservation and Disposal of Historic Properties                                SM-AR-14-004



Prior Audit Coverage

                                                          Final           Monetary
                                                         Report            Impact
           Report Title             Report Number          Date         (in millions)
Management Alert – Risks            SM-MA-14-003        2/12/2014           None
Associated With CB Richard
Ellis, Inc. Contract
Report Results:
As a result of our audit and ongoing concerns surrounding the CBRE contract, we
identified additional information that increased the financial risks to the Postal
Service. Specifically, Postal Service officials modified the contract in June 2012 to
allow CBRE to negotiate on behalf of the Postal Service as well as prospective
buyers and lessors in the same real estate transaction. Management disagreed with
our recommendation to discontinue the practice.

Contracting of Real Estate           SM-AR-13-001      6/12/2013             $1.7
Management Services
Report Results:
Postal Service Facilities officials should improve oversight to mitigate inherent risks
associated with the CBRE contract. Specifically, there are conflict of interest
concerns and no maximum contract value. In addition, the CO did not properly
approve contract payments, appoint CO's representatives to monitor contract
performance, or ensure services were provided. As a result, it is difficult for the
Postal Service to determine whether the outsourcing effort has been or will be
effective in reducing costs. Management agreed with our recommendations to
establish a reasonable maximum contract value based on historical budgets and
designate CO's representatives and specify their duties to monitor contract
performance and approve payments.




                                                   15
Preservation and Disposal of Historic Properties                                                   SM-AR-14-004




                                                                        Final               Monetary
                                                                       Report                Impact
          Report Title              Report Number                       Date              (in millions)
Improved Data Needed to               GAO-13-35                      12/11/2012               None
Strategically Manage Historic
Buildings, Address Multiple
Challenges
Report Results:
The Government Accountability Office (GAO) recommended the GSA — in
collaboration and consultation with the NPS, Veterans Affairs, and Federal Real
Property Council (FRPC)37 member agencies, and others — should ensure that the
action plan being developed to improve Federal Real Property Profile (FRPP)38 also
addresses the need for improved data on historic buildings. The GSA agreed with
the GAO’s recommendation and further reported that it has, in part, already taken
action to rectify inconsistencies the GAO found between GSA’s FRPP data and its
internal data sources.

Strategic Partnerships and          GAO-12-779            7/25/2012          None
Local Coordination Could
Help Agencies Better Utilize
Space
Report Results:
The GAO recommended the OMB work with FRPC and the Postal Service to,
among other things, lead the creation of strategic partnerships between GSA and
other property-owning federal agencies with less experience sharing real property
and establish a mechanism (including the Postal Service) for local coordination to
improve coordination and identify specific opportunities to share space. The OMB,
GSA, and Postal Service generally agreed with the recommendations. The Postal
Service stated that it needs to maintain flexibility during these extreme times of
uncertainty due to ongoing financial challenges and consolidation efforts and it has
every intention of cooperating with the spirit of the GAO’s initiatives; however, it
must ultimately make decisions based on best value and best results for the Postal
Service.



37
   The FRPC is comprised of certain executive branch agencies including the departments of Agriculture, Commerce,
Defense, Education, Energy, Health and Human Services, Homeland Security, Housing and Urban Development,
Interior, Justice, Labor, State, Transportation, Treasury, Veterans Affairs; the, Environmental Protection Agency;
National Aeronautics and Space Administration; U.S. Agency for International Development; GSA; National Science
Foundation; Nuclear Regulatory Commission; Office of Personnel Management; Small Business Administration; and
the Social Security Administration. The FRPC is chaired by the deputy director for Management of the Office of
Management and Budget (OMB). The FRPC was established by EO 13327, Federal Real Property Asset
Management, 69 Federal Register 5897 (February 6, 2004). The order does not apply to the Postal Service.
38
   FRPP is a comprehensive and descriptive database of all real property under the custody and control of all
executive branch agencies, except when otherwise required for reasons of national security, in accordance with EO
13327.

                                                       16
Preservation and Disposal of Historic Properties                SM-AR-14-004



                            Appendix B: Management’s Comments




                                                   17
Preservation and Disposal of Historic Properties        SM-AR-14-004




                                                   18
Preservation and Disposal of Historic Properties        SM-AR-14-004




                                                   19
Preservation and Disposal of Historic Properties        SM-AR-14-004




                                                   20
